A1
APPENDIX A
19-3563 Docket
General Docket Court of Appeals, 2nd Circuit
Court of Appeals Docket#: 19-3563
Termed: 11/26/2019
Docketed: 10/29/2019
Church of Jesus Christ of Latt v. Chatigny
Appeal From: CONNECTICUT (NEW HAVEN)
Fee Status: Paid
Type Information:
1) Misc. Civil
2) Other
3) none
Originating Court Information:
District: 0205-3 : 17-cv-2066
Trial Judge: Victor A. Bolden, U.S. District Judge
Date Filed: 12/11/2017
Date Order/Judgment: 10/10/2019
Date NOA Filed: 10/28/2019
Date Rec'd COA: 10/29/2019
Prior Cases: None
Current Cases: None
Panel Assignment: Not available
Church of Jesus Christ of Latter-Day Saints
Petitioner

A2
Xiu Jian Sun, The Spiritual Adam
Petitioner
Xiu Jian Sun, [NTC Pro Se]
2nd Floor
54-25 153rd Street
Flushing, NY 11355
Robert N. Chatigny, Pharisees
Respondent
Sandra Slack Glover, Assistant
United States Attorney
[COR NTC US Attorney]
United States Attorney's Office
for the District of Connecticut
Connecticut Financial Center
157 Church Street
New Haven, CT 06510
Church of Jesus Christ of Latter-Day
Saints, Xiu Jian Sun, The Spiritual Adam,
Petitioners,
v.
Robert N. Chatigny, Pharisees,
Respondent.
10/29/2019
1
5 pg, 61.51 KB

NOTICE OF CIVIL APPEAL, and
district court docket, on behalf of
Petitioners Church of Jesus Christ
of Latter-Day Saints and Xiu Jian
Sun, RECEIVED. [2692402][19-35
63] [Entered: 10/29/2019 06:44 PM]

A3
10/29/2019
2
2 pg, 85.35 KB

DISTRICT COURT ORDER,
entered in the district court as
docket entry #9, dated 10/10/2019,
RECEIVED. [2692403] [19-3563]
[Entered: 10/29/2019 06:46 PM]

5

PAYMENT OF DOCKETING FEE,
on behalf of Petitioners Church of
Jesus Christ of Latter-Day Saints
and Xiu Jian Sun, district court
receipt # CTXB00010671, FILED.
[2692408]
[19-3563]
[Entered:
10/29/2019 06:57 PM]

10/29/2019
6
1 pg, 36.68 KB

ORDER, dated 10/29/2019,
dismissing appeal by 11/12/2019,
unless Petitioner Xiu Jian Sun,
submits a motion for leave to
appeal, copy to pro se appellant,
FILED. [2692409] [19-3563]
[Entered: 10/29/2019 06:59 PM]

10/29/2019 7
7 pg, 150.49 KB

ELECTRONIC INDEX, in lieu of
record, FILED. [2692410] [19-356
3] [Entered: 10/29/2019 07:11 PM]

10/29/2019

11/07/2019
8
38 pg, 2.82 MB

BRIEF & APPENDIX, on behalf of
Petitoners Church of Jesus Christ
of Latter-Day Saints and Xiu Jian

A4
Sun,
FILED.
Service
date
11/05/2019 by hand delivery.
[2700632]
[19-3563]
[Entered:
11/07/2019 09:59 AM]
11/07/2019 9
2 pg, 137.2 KB

ACKNOWLEDGMENT AND
NOTICE OF APPEARANCE
FORM, on behalf of Party Xiu Jian
Sun, FILED. Service date 11/05/20
19 by US mail. [2700693] [19-3563]
[Entered: 11/07/2019 10:23 AM]

11/07/2019 10
2 pg, 148.3 KB

FORM D-P, on behalf of Xiu Jian
Sun, FILED. Service date 11/05/20
19 by US mail. [2700696] [19-3563]
[Entered: 11/07/2019 10:24 AM]

11/07/2019 U
2 pg, 139.94 KB

LR 31.2 SCHEDULING
NOTIFICATION, on behalf of Xiu
Jian Sun, informing Court of
proposed due date 01/01/2020,
RECEIVED. Service date 11/05/20
19 by US mail. [2700702] [19-3563]
[Entered: 11/07/2019 10:25 AM]

11/26/2019 14
1 pg, 9.06 KB

NEW CASE MANAGER, Margaret
Lain, ASSIGNED. [2716649] [19-35
63] [Entered: 11/26/2019 01:36 PM]

11/26/2019

ORDER, [6] appeal dismissed for

15

A5
Petitioner Xiu Jian Sun failure to
file a motion for leave to appeal,
EFFECTIVE. [2716656] [19-3563]
[Entered: 11/26/2019 01:39 PM]
12/17/2019 17
1 pg, 648.66 KB

CERTIFIED COPY OF ORDER,
dated 10/29/2019, determining the
to
DISTRICT
OF
appeal
CONNECTICUT, copy to pro se,
ISSUED.
[Mandate]
[2731216]
[19-3563] [Entered: 12/17/2019
10:25 AM]

Clear All
XDocuments and Docket Summary
_Documents Only
X Include Page Numbers
Selected Size: 0 KB
Selected Pages: 0
View Selected
PACER Service Center
Transaction Receipt
12/23/2019 23:13:49
Client Code: 4869479
PACER Login: xiujiansun
Description: Docket Report (full)
Search Criteria: 19-3563
Billable Pages: 1
Cost: 0.10
https://ecf.ca2.uscourts.gOv/n/beam/servlet/Transport
Room

B1
APPENDIX B
Case 19-3563, Document 6, 10/29/2019, 2692409,
Pagel of 1
UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT

At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 29th day of October,
two thousand and nineteen,

Church of Jesus Christ of
Latter-Day Saints, Xiu Jian
Sun, The Spiritual Adam
Petitioner,
v.
Robert N. Chatigny, Pharisees,
Respondent.

ORDER
Docket No. 19-3563

On December 13, 2017 this Court entered an order
in 16-3557, Sun v. Dillon requiring appellant to file a
motion seeking leave of this Court prior to filing any
future appeals.

B2

A notice of appeal in the above referenced case was
filed. The Court has no record that appellant sought
the Court's permission to appeal prior to filing notice of
appeal.
IT IS HEREBY ORDERED that this case is
dismissed effective November 19, 2019 unless a motion
seeking leave of this Court is filed by that date.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court
UNITED STATES
COURT OF APPEALS
SECOND CIRCUIT
Catherine O'Hagan Wolfe

B3
Case 19-3563, Document 7-1, 10/29/2019, 2692410,
Pagel of 1
United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square, New York, NY 10007
ROBERT A. KATZMANN CHIEF JUDGE
CATHERINE O'HAGAN WOLFE CLERK OF COURT
Date: October 29, 2019
Docket#: 19-3563
Short Title: Church of Jesus Christ of Latt v. Chatigny
DC Docket#: 17-cv-2066
DC Court: CT (NEW HAVEN)
DC Judge: Bolden
NOTICE OF RECORD ON APPEAL FILED
In the above referenced case the document indicated
below has been filed in the Court.

X

Record on Appeal - Certified List
Record on Appeal - CD ROM
Record on Appeal - Paper Documents
Record on Appeal - Electronic Index
Record on Appeal - Paper Index

Inquiries regarding this case may be directed to
212-857-8546.

B4
Case 19-3563, Document 7-2, 10/29/2019, 2692410,
Page5 of 6
CA02db Intake
From: CMECF@ctd.uscourts.gov
Sent: Tuesday, October 29, 2019 2:37 PM
To: CTD CMECF
Subject: Activity in Case 3:17-cv-02066-VAB Church
of Jesus Christ of Latter-Day Saints et al v. Chatigny
Clerk's Certificate re: Notice of Appeal
This is an automatic e-mail message generated
by the CM/ECF system. Please DO NOT RESPOND
to this e mail because the mail box is unattended.
'k'k'k
NOTE TO PUBLIC ACCESS USERS*** Judicial C
onference of the United States policy permits attorney
s of record and parties in a case (including pro se
litigants) to receive one free electronic copy of all
documents filed electronically, if receipt is required
by law or directed by the filer. PACER access fees
apply to all other users. To avoid later charges,
download a copy of each document during this first
viewing. However, if the referenced document is a
transcript, the free copy and 30 page limit do not
apply.
U.S. District Court District of Connecticut
Notice of Electronic Filing
The following transaction was entered on 10/29/2019 a
t 2:36 PM EDT and filed on 10/29/2019
Case Name: Church of Jesus Christ of Latter - Day

B5
Saints et al v. Chatigny
Case Number: 3:17 - cv - 02066 - VAB
Filer:
WARNING: CASE CLOSED on 10/10/2019
Document Number: 11
Docket Text:
CLERK'S CERTIFICATE RE: INDEX AND
RECORD ON APPEAL re: [10] Notice of Appeal. The
attached docket sheet is hereby certified as the entire
Index/Record on Appeal in this matter and
electronically sent to the Court of Appeals, with the
exception of any manually filed documents as noted
below. Robin D. Tabora, Clerk. Documents manually
filed not included in this transmission: NONE
(Fazekas, J.)
3:17 - cv - 02066 - VAB Notice has been
electronically mailed to:
3:17 - cv - 02066 - VAB Notice has been
delivered by other means to:
Xiu Jian Sun
54 - 25 153rd St., 2FL, Flushing, NY 11355
The following document(s) are associated with this
transaction:
Document description: Main Document
Original filename: n/a
Electronic document Stamp: [STAMP dcecfStamp_
ID=1034868047 [Date=10/29/2019] [FileNumber=6041
4400] [80a62837643efcc4b89bl3e4e0a8d3cle004ef28d
be421ble4a9a488751768cca80f5f527eb81900a264afea
103abc91f27ab5f382a672ca091c72cce5069d8d]]

Cl
APPENDIX C
Case 19-3563, Document 8, 11/07/2019, 2700632,
Pagel of 38
RECEIVED
19-3563 2019 NOV-7 AM 08:55
CLERK’S OFFICE
U.S. COURT OF APPEALS
___________
COUNTER 1
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

THE CHURCH OF JESUS CHRIST OF
LATTER- DAY SAINTS, SERVANT: XIU
JIAN SUN, THE SPIRITUAL ADAM
Plaintiff - Appellant,
v.
Pharisees: ROBERT N. CHATIGNY,
Defendant - Appellee.
On Appeal from the United States District
Court District of Connecticut
Brief of Appellant
Xiu Jian Sun, the spiritual Adam
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam Pro Se
54-25 153rd St., Flushing, NY 11355
646-675-0308

C2
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page2 of 38
TABLE OF CONTENTS

Page(s)
Table of Contents

1. (C2)

Statutes & Rules

2. (4)

Statement of Subject Matter and Appellate
Jurisdiction...................................................

3. (C3)

Statement of the Issues Presented for Review . 4. (C4)
Statement of the Case
Conclusion

5. (C5)
6. (8)

Certificate of Compliance

7. (C6)

Certificate of Service

8. (C7)

C3
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page4 of 38
STATEMENT OF SUBJECT MATTER AND
APPELLATE JURISDICTION

1.

Jehovah, -the Lord God of host, sent the messenger
through angel said to spiritual Adam: “the
Pharisees even swallowed up camels1.”
11/25/2017. GiMA&MfPST*), (Docket #:
16-3557)

2.

Jehovah, - the Lord god of host gives the words to
servant (Plaintiff) in the temple he made, “Trial
with god's law. Apply for jury to prevent
insult and unfair behavior.”

3.

I (servant) would like to request a Mandarin
Chinese court interpreter for my appeal court day.

h

In the Complaint

C4
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page5 of 38
Statement of the Issues Presented for Review

1.

November 26th-27th, 2012. the Lord god of host
Jehovah sent the messenger said to servant
(Plaintiff) through the angel: “Did not keep
promise”.

2.

The Lord god of hosts sent messenger through the
angel said to servant: 'Pharisees don't even
open the door'. (Words given on the date of
October 5th, 2015, on the way home from the court.

3.

Jehovah, the Lord god of host, sent the son of god,
(the revived Messiah) from God's temple gave
words to servant, said:' Pharisees not even move
a finger of his."
•

4. In the nights from February 29th to March 1st, 2016,
the Lord god of host, - Jehovah sent the messenger
said to servant, "seeking for profit, gang
organization." (igfij,

C5
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page6 of 38
Statement of the Case
1. The Lord god Jehovah sent the messenger,, said to
spiritual Adam through the angel, ‘unjust judge.’
(T^iE^it).
2. Jehovah, the Lord god of host, sent the son of god,
(the revived Messiah) from God's temple gave
words to servant, said: ‘The Pharisees have
appropriated widow’s possessions.’
SSia&WA).
3. Jehovah, the Lord god of host, sent the son of god,
(the revived Messiah) from God's temple gave
words to servant, said: ‘Pharisees even
swallowed dead people’s bones.’ (>£fy$Aii5EAfft

#A#b±t*).

C6
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page8 of 38
CERTIFICATE OF COMPLIIANCE

In accordance with Rules 32(a)(7)(B) and (C) of the
Federal Rules of Appellate Procedure, the undersigned
Servant, Xiu Jian Sun, The Spiritual Adam for
appellant certifies that the accompanying brief is
printed in 14 point typeface, with serifs, and, including
footnotes, contains no more than 14,000 words.
According to the word-processing system used to
prepare the brief, Microsoft 2016 Word, it contains 733
words.
Name of typeface. Century Schoolbook
Line spacing: Double

Dated: Queens, New York
November 5, 2019
Servant: Xiu Jian Sun, the spiritual Adam
Xiu Jian Sun, the spiritual Adam
54-25 153rd St.,
Flushing NY 11355
646-675-0308
Plaintiffs

C7
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page9 of 38
Case 19-3563, Document 11, 11/07/2019, 2700702,
Page2 of 2
Case 19-3563, Document 9, 11/07/2019, 2700693,
Page2 of 2
Case 19-3563, Document 10, 11/07/2019, 2700696,
Pagel of 2
UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT
CAPTION:

CERTIFICATE OF SERVICE-

THE CHURCH OF JESUS CHRIST
OF LATTER-DAY SAINTS, SERVANT:
XIU JIAN SUN, THE SPIRITUAL ADAM
Plaintiffs
Docket Number: 19-3563
v.
Pharisees: ROBERT N. CHATIGNY,
Defendant
I, Simon Chen, the spiritual Adam, hereby certify
under penalty of perjury that on November 05, 2019. I
served a copy of 1. Appendix of Appellant: 2. Brief of
Scheduling
Notification:
4.
Appellant:
3.
Acknowledgment & Notice Appearance: 5. Form D-P;
by (select all applicable) • •
___Personal Delivery

X

United States Mail

C8
Federal Express or other Overnight Courier
Commercial Carrier
E-Mail (on consent)
on the following parties:
Name

Address City State Zip Code

Sandra Slack Glover, Assistant United States Attorney,
United States Attorney's Office for the District of
Connecticut
157 Church Street, New Haven, CT 06510
•A party must serve a copy of each paper on the other
parties, or their counsel, to the appeal or proceeding.
The Court will reject papers for filing if a certificate of
service is not simultaneously filed
• *If different methods of service have been used on
different parties, please complete a separate certificate
of service for each party.
11/05/2019
Today’s Date

Simon Chen
Signature

Certificate of Service Form (Last Reviewed 12/2015)

C9
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page 10 of 38
RECEIVED
19-3563 2019 NOV-7 AM 08:55
CLERK’S OFFICE
U.S. COURT OF APPEALS
____________
COUNTER 1
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

THE CHURCH OF JESUS CHRIST OF
LATTER- DAY SAINTS, SERVANT: XIU
JIAN SUN, THE SPIRITUAL ADAM
Plaintiff - Appellant,
v.
Pharisees: ROBERT N. CHATIGNY,
Defendant - Appellee.

On Appeal from the United States District
Court District of Connecticut
Appendix of Appellant
Xiu Jian Sun, the spiritual Adam
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam Pro Se
54-25 153rd St., Flushing, NY 11355
646-675-0308

CIO
Case 19-3563, Document 8, 11/07/2019, 2700632,
Pagell of 38
TABLE OF CONTENTS

1.

U.S. District Court District of Connecticut
Docket Sheet# 3:17-cv-02066-VAB..... 2. (Cll)

2.

Complaint

4. (C17)

3.

Order on Pretrial Deadlines

7. (Cl9)

4.

Electronic Filing Order

8. (C21)

5.

Standing Protective Order

9. (C23)

6.

Notice to Counsel and pro se Parties

15. (C32)

7.

Order re: Disclosure Statement

17. (C35)

8.

Tips for Successful CM/ECF Efiling

18. (C36)

9.

Response re 7 Notice,,, filed by Xiu Jian Sun.
(Fazekas, J.) (Entered: 07/03/2018).... 22. (C41)

10. Certificate of Service

25. (C45)

11. Notice of Appeal

26. (C46)

12. Order of Dismissal

27. (C47)

13. Certificate of Service

28. (C48)

Cll
Case 19-3563, Document 8, 11/07/2019, 2700632,
Pagel2 of 38
Case 3:17-cv-02066-VAB Document 11
Filed 10/29/19 Page 1 of 2
Case 19-3563, Document 1, 10/29/2019, 2692402,
Page4 of 5
Case 19-3563, Document 2, 10/29/2019, 2692403,
Pagel of 2
Case 19-3563, Document 7-2, 10/29/2019, 2692410,
Pagel of 16
Case 19-3563, Document 7-2, 10/29/2019, 2692410,
Pagel of 6
Case 19-3563, Document 7-2, 10/29/2019, 2692410,
Page3 of 6
APPEAL,CLOSED,EFILE,PROSE,WIG
U.S. District Court District of Connecticut
(New Haven) CIVIL DOCKET FOR
CASE #: 3:17-cv-02066-VAB
Church of Jesus Christ of Latter-Day Saints et al v.
Chatigny
Assigned to: Judge Victor A. Bolden
Cause: No cause code entered
Date Filed: 12/11/2017
Date Terminated: 10/10/2019
Jury Demand: Plaintiff
Nature of Suit: 890 Other Statutory Actions
Jurisdiction: Federal Question
Plaintiff

C12
Church of Jesus Christ of Latter-Day Saints
Plaintiff
Xiu Jian Sun The Spiritual Adam
represented by Xiu Jian Sun
54-25 153rd St., 2FL
Flushing, NY 11355
646-675-0308 PRO SE
V.
Defendant
Robert N. Chatigny Pharisees
Date Filed

#

Docket Text

12/11/2017

1

COMPLAINT against Robert N.
Chatigny, filed by The Church of
Jesus Christ of latter Day Saints,
Xiu Jian Sun. (Attachments: # 1
Envelope) (Hernandez, T.) (Entered:
12/13/2017)
Filing fee received from Xiu Jian
Sun: $ 400.00, receipt number
CTXH00013495 (Hernandez, T.)
(Entered: 12/13/2017)

12/11/2017

12/11/2017

2

Order on Pretrial Deadlines:
Motions to Dismiss due on
3/11/2018. Amended Pleadings due
by 2/9/2018. Discovery due by
6/12/2018. Dispositive Motions due
by 7/12/2018. Signed by Clerk on

C13
12/11/2017.
(Hernandez,
(Entered: 12/13/2017)

T.)

12/11/2017

3

ENTERED
IN
ERROR.
ELECTRONIC FILING ORDERPLEASE ENSURE COMPLIANCE
WITH
COURTESY
COPY
REQUIREMENTS
IN
THIS
ORDER Signed by Judge Victor A.
Bolden on 12/11/2017. (Hernandez,
12/19/2017
on
T.)
Modified
T.).
(Entered:
(Hernandez,
12/13/2017)

12/11/2017

4

STANDING PROTECTIVE ORDER
Signed by Judge Victor A. Bolden
on 12/11/2017. (Hernandez, T.)
(Entered: 12/13/2017)

12/13/2017

5

NOTICE TO COUNSEL/SELFREPRESENTED PARTIES :
Counsel or self-representing
parties initiating or removing this
action are responsible for serving
all parties with attached documents
and copies of 4 Standing Protective
Order, 2. Order on Pretrial
Deadlines, 3 Electronic Filing
Order, 1 Complaint filed by

C14
Xiu Jian Sun, The Church of Jesus
Christ of latter Day Saints Signed
by Clerk on 12/13/2017. (Hernandez,
T.) (Entered: 12/13/2017)
12/19/2017

6

Docket Entry Correction re 3
Electronic Filing Order (Hernandez,
T.) (Entered: 12/19/2017)

06/15/2018

7

41(a) NOTICE: Rule 41(a) of the
Local Rules of this District provides:
"In civil actions in which no action
has been taken by the parties for
six (6) months or in which deadlines
established by the Court pursuant
to Rule 16 appear not to have been
met, the Clerk shall give notice of
proposed dismissal to counsel of
record and pro se parties, if any. If
such notice has been given and no
action has been taken in the action
in the meantime and no
satisfactory explanation is
submitted to the Court within
twenty (20) days thereafter, the
Clerk shall enter an order of
dismissal. Any such order entered
by the Clerk under this

C15
Rule may be suspended, altered, or
rescinded by the Court for cause
shown. This case is subject to being
dismissed under this rule. Unless
satisfactory explanation of why it
should not be dismissed is
submitted to the Court by 7/5/2018,
it shall be dismissed. Signed by
Clerk on 6/15/2018. (Perez, J.)
(Entered: 06/15/2018)
Set Deadlines/Hearings: Dismissal
due by 7/5/2018 (Perez, J.) (Entered:
06/15/2018)

06/15/2018

06/28/2018

8

RESPONSE re 7 Notice,,, filed by
Xiu Jian Sun. (Fazekas, J.)
(Entered: 07/03/2018)

10/10/2019

9

ORDER dismissing the case under
D. Conn. L. Civ. R. 41(a), consistent
with the Court's order from June 15,
2018, ECF No. 7. That notice
required Plaintiff to respond with a
"satisfactory explanation" for the
case's inaction. Having reviewed
the response submitted, the Court
has determined that it is not
satisfactory. Furthermore, since

C16
that response, the Court allowed
more time to elapse, but Plaintiff
has still failed to move this case
forward. Accordingly, the Clerk of
Court is respectfully requested to
terminate the case. Signed by
Judge Victor A. Bolden on
10/10/2019.
(Conde,
Djenab)
(Entered: 10/10/2019)
10/28/2019

10/29/2019

NOTICE OF APPEAL as to 9 Order,,
by Xiu Jian Sun. Filing fee $505.00,
receipt number CTXB00010671.
(Fazekas, J.) (Entered: 10/29/2019)

10

n

CLERK'S CERTIFICATE RE:
INDEX
AND
RECORD
ON
APPEAL re: 10 Notice of Appeal.
The attached docket sheet is hereby
certified as the entire Index/Record
on Appeal in this matter and
electronically sent to the Court of
Appeals, with the exception of any
manually filed documents as noted
below. Robin D. Tabora, Clerk.
Documents manually filed not
included in this transmission:
NONE (Fazekas, J.) (Entered:
10/29/2019)

C17
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page 14 of 38
Case 3:17-cv-02066-VAB Document 1
Filed 12/11/17 Page 1 of 2
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
FILED
2017 DEC IIP 1:25
______________ X
US DISTRICT COURT
HARTFORD, CT
THE CHURCH OF JESUS
CHRIST OF LATTER -DAY SAINTS, SERVANT:
XIU JIAN SUN, THE SPIRITUAL ADAM
Civil Action No
54-25 153rd St.,
3:17-cv-02066-VAB
Flushing, NY 11355,
646-675-0308.
Plaintiffs
v.
Pharisees: ROBERT N. CHATIGNY,
Apply for jury
450 Main Street,
to prevent insult
Hartford, Connecticut 06103
and unfair behavior
860-240-3200
Defendant
X
COMPLAINT
TO UNITED STATES DISTRICT COURT DISTRICT
OF CONNECTICUT
The complaint of the plaintiffs, -god’s servant, Xiu
Jian Sun, the spiritual Adam respectfully shows and

C18
alleges as follows.
1. Jehovah, -the Lord God of host, sent the messenger
through angel said to spiritual Adam: “the Pharisees
even swallowed up camels.” 11/25/2017.
§TA), (Docket#: 16-3557-cv)

2. Jehovah, -the Lord god of host gives the words to
servant (Plaintiff) in the temple he made, “Trial with
god's law. Apply for jury to prevent insult and unfair
behavior.”
3.1 (servant)would like to request a Mandarin Chinese
court interpreter for my appeal court day.
Dated: Queens, New York
December 5, 2017
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
Xiu Jian Sun, the spiritual Adam
54-25 153rd St.,
Flushing, NY 11355
646-675-0308
Plaintiffs

C19
Case 19-3563, Document 8, 11/07/2019, 2700632,
Pagel7 of 38
Case 3:17-cv-02066-VAB Document 2
Filed 12/11/17 Page 1 of 1
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
ORDER ON PRETRIAL DEADLINES
Unless otherwise ordered by the Judge to whom
this case is assigned, the parties shall adhere to the
following deadlines:
(a) In accordance with Local Civil Rule 26(f},
within thirty days of the appearance of a defendant,
the parties shall confer for the purposes described in
Fed. R.Civ. P. 26(f). Within fourteen days thereafter,
the parties shall jointly file a report on Form 26(f),
which appears in the Appendix to the Local Civil
Rules.
(b) All motions relating to joinder of parties, claims
or remedies, class certification, and amendment of the
pleadings shall be filed within 60 days after filing of
the complaint, the filing of a petition for removal, or
the transfer of an action from another District.
(c) All motions to dismiss based on the pleadings
shall be filed within 90 days after the filing of the
complaint, the filing of a petition for removal, or the
transfer of an action from another District. The filing
of a motion to dismiss shall not result in the stay of
discovery or extend the time for completing discovery.

C20
(d) Formal discovery pursuant to the Federal Rules
of Civil Procedure may not commence until the parties
have conferred as required by Fed. R. Civ. P. 26(f) and
Local Civil Rule 26(f) and a scheduling order has been
entered into pursuant to Fed. R. Civ. P. 16(b). Informal
discovery by agreement of the parties is encouraged
and may. commence at any time. Unless otherwise
ordered, discovery shall be completed within 6 months
after the filing of the complaint, the filing of a petition
for removal, or the date of transfer of an action from
another District.
(e) Unless otherwise ordered, all motions for
summary judgment shall be filed within 7 months after
the filing of the complaint, the filing of a petition for
removal, or the date of transfer from another District.
Unless specifically ordered by_ the Court, an
extension of time to comply with any one of the time
limits in this Order does not automatically extend the
time to comply with subsequent time limits.
Counsel for plaintiff or removing defendant shall
be responsible for serving a copy of this order on all
parties to the action.
By Order of the Court
Robin D. Tabora, Clerk
This Order is issued pursuant to the Standing
Order on Scheduling In Civil Cases, which appears in
the Appendix to the Local Civil Rules
(Rev. 6/2/17)

C21
Case 19-3563, Document 8, 11/07/2019, 2700632,
Pagel8 of 38
Case 3:17-cv-02066-VAB Document 3 Filed 12/11/17
Page 1 of 1
UNITED STATES DISTRICT COURT DISTRICT
OF CONNECTICUT
ELECTRONIC FILING ORDER
The Court orders that the parties shall file all
documents in this case electronically. The following
requirements are imposed:
1.

Counsel must comply with all applicable Federal
Rules of Civil Procedure, the District's Local Rules
and the requirements set forth in the District's
CMIECF Policies and Procedures Manual, and any
other rules and administrative procedures that
implement the District's CMIECF system.

2.

Documents filed electronically must be filed in
OCR text searchable PDF format.

3.

Unless otherwise ordered, on the business day next
following the day on which a document is filed
electronically, counsel must provide Chambers,
with one paper

copy of the following e-filed documents:
Civil Cases: All pleadings (including briefs and
exhibits) supporting or opposing the following:

C22
a.

Applications for temporary restraining orders
preliminary injunctions or prejudgment remedies;

b.

Dispositive motions (motions to dismiss or for
summary judgment);

C.

Requested jury instructions;

d.

Compliance with Pretrial Orders;

e.

Trial briefs, including proposed findings of fact and
conclusions of law; and f. Any other filing
requested by the court.
/s/ Victor A. Bolden
Victor A. Bolden
United States District Judge

Rev 1125115

C23
Case 19-3563, Document 8, 11/07/2019, 2700632,
Pagel9 of 38
Case 3:17-cv-02066-VAB Document 4 Filed 12/11/17
Page 1 of 6
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
STANDING PROTECTIVE ORDER
1. It is hereby ordered by the Court that the following
shall apply to information, documents, excerpts from
documents, and other materials produced in this action
pursuant to Federal and Local Rules of Civil
Procedure governing disclosure and discovery.
2. Information, documents and other materials may be
designated by the producing, party in the manner
permitted ("the Designating Person"). All such
information, documents, excerpts from documents, and
other materials will constitute "Designated Material"
under this Order. The designation shall be either (a)
"CONFIDENTIAL" or (b) CONFIDENTIALATTORNEYS' EYES ONLY." This Order shall apply to
Designated Material produced by any party or
third-party in this action.
3. "CONFIDENTIAL" information means information,
documents, or things that have not been made public
by the disclosing party and that the disclosing party
reasonably and in good faith believes contains or
comprises (a) trade secrets, (b) proprietary business
information, or (c) information implicating an
individual's legitimate expectation of privacy.
4. "CONFIDENTIAL-ATTORNEY’S EYES ONLY"
means CONFIDENTIAL information that the

C24
disclosing party reasonably and in good faith believes
is so highly sensitive that its disclosure to a competitor
could result in significant competitive or commercial
disadvantage to the designating party.
5. Designated Material shall not be used or disclosed
for any purpose other than the litigation of this action
and may be disclosed only as follows:
a. Parties: Material designated "CONFIDENTIAL"
may be disclosed to parties to this action or directors,
officers and employees of parties to this action, who
have a legitimate need to see the information in
connection with their responsibilities for overseeing
the litigation or assisting counsel in preparing the
action for trial or settlement. Before Designated
Material is disclosed for this purpose, each such
person must agree to be bound by this Order by
signing a document substantially in the form of
Exhibit A.
b. Witnesses or Prospective Witnesses: Designated
Material, including material designated
"CONFIDENTIAL-ATTORNEYS' EYES ONLY,"
may be disclosed to a witness or prospective witness
in this action, but only for purposes of testimony or
preparation of testimony in this case, whether at
trial, hearing, or deposition, but it may not be
retained by the witness or prospective witness.
Before Designated Material is disclosed for this
purpose, each such person must agree to be bound by
this Order, by signing a document substantially
in the form of Exhibit A.
c. Outside Experts: Designated Material, including
material designated "CONFIDENTIAL-

C25
ATTORNEYS’ EYES ONLY," may be disclosed to an
outside expert for the purpose of obtaining the
expert's assistance in the litigation. Before
Designated Material is disclosed for this purpose,
each such person must agree to be bound by this
Order, by signing a document substantially in the
form of Exhibit A.
d. Counsel: Designated Material, including material
designated "CONFIDENTIALATTORNEYS' EYES
ONLY," may be disclosed to counsel of record and
inhouse counsel for parties to this action and their
associates, paralegals, and regularly employed office
staff.
e.

Other Persons: Designated Material may be
provided as necessary to copying services,
translators, and litigation support firms. Before
Designated Material is disclosed to such third
parties, each such person must agree to be bound by
this Order by signing a document substantially in
the form of Exhibit A.

6. Prior to disclosing or displaying any Designated
Material to any person, counsel shall:
a. Inform the person of the confidential nature of the
Designated Material; and
b. Inform the person that this Court has enjoined the
use of the Designated Material by him/her for any
purpose other than this litigation and has enjoined
the disclosure of that information or documents to
any other person.

C26
7. The confidential information may be displayed to
and discussed with the persons identified in
Paragraphs 5(b) and (c) only on the condition that,
prior to any such display or discussion, each such
person shall be asked to sign an agreement to be bound
by this Order in the form attached hereto as Exhibit A.
In the event such person refuses to sign an agreement
in substantially the form attached as Exhibit A, the
party desiring to disclose the confidential information
may seek appropriate relief from the Court.
8. A person having custody of Designated Material
shall maintain it in a manner that limits access to the
Designated Material to persons permitted such access
under this Order.
9. Counsel shall maintain a collection of all signed
documents by which persons have agreed to be bound
by this Order.
10. Documents shall be designated by stamping or
otherwise marking the documents with the words
"CONFIDENTIAL”
or
"CONFIDENTIAL-FOR
ATTORNEYS' EYES ONLY" thus clearly identifying
the category of Designated Material for which
protection is sought under the terms of this Order.
Designated Material not reduced to documentary form
shall be designated by the producing party in a
reasonably equivalent way.
11. The parties will use reasonable care to avoid
designating as confidential documents or information
that does not need to be designated as such.

C27
12. A party may submit a request in writing to the
party who produced Designated Material that the
designation be modified or withdrawn. If the
Designating Person does not agree to the redesignation
within fifteen business days, the objecting party may
apply to the Court for relief. Upon any such application,
the burden shall be on the Designating Person to show
why the designation is proper. Before serving a written
challenge, the objecting party must attempt in good
faith to meet and confer with the Designating Person
in an effort to resolve the matter. The Court may
award sanctions if it finds that a party's position was
taken without substantial justification.
13. Deposition transcripts or portions thereof may be
designated either (a) when the testimony is recorded,
or (b) by written notice to all counsel of record, given
within ten business days after the Designating
Person's receipt of the transcript in which case all
counsel receiving such notice shall be responsible for
marking the copies of the designated transcript or
portion thereof in their possession or control as
directed by the Designating Person. Pending
expiration of the ten business days, the deposition
transcript shall be treated as designated. When
testimony is designated at a deposition, the
Designating Person may exclude from the deposition
all persons other than those to whom the Designated
Material may be disclosed under paragraph 5 of this
Order. Any party may mark Designated Material as
a deposition exhibit, provided the deposition witness
is one to whom the exhibit may be disclosed under

C28
paragraph 5 of this Order and the exhibit and related
transcript pages receive the same confidentiality
designation as the original Designated Material.
14. Any Designated Material which becomes part of an
official judicial proceeding or which is filed with the
Court is public. Such Designated Material will be sealed
by the Court only upon motion and in accordance with
applicable law, including Rule 5(e) of the Local Rules of
this Court. This Protective Order does not provide for
the automatic sealing of such Designated Material. If it
becomes necessary to file Designated Material with the
Court, a party must comply with Local Civil Rule 5 by
moving to file the Designated Material under seal.
15. Filing pleadings or other papers disclosing or
containing Designated Material does not waive the
designated status of the material. The Court will
determine how Designated Material will be treated
during trial and other proceedings as it deems
appropriate.
16. Upon final termination of this action, all Designated
Material and copies thereof shall be returned promptly
(and in no event later than forty-five (45) days after
entry of final judgment), returned to the producing
party, or certified as destroyed to counsel of record for
the party that produced the Designated Material, or, in
the case of deposition testimony regarding designated
exhibits, counsel of record for the Designating Person.
Alternatively, the receiving party shall provide to the
Designating Person a certification that all such
materials have been destroyed.

C29

17. Inadvertent production of confidential
prior to its designation as such in accordance
Order shall not be deemed a waiver of a
confidentiality. Any such error shall be
within a reasonable time.

material
with this
claim of
corrected

18. Nothing in this Order shall require disclosure of
information protected by the attorney-client privilege,
or other privilege or immunity, and the inadvertent
production of such information shall not operate as a
waiver. If a Designating Party becomes aware that it
has inadvertently produced information protected by
the attorney-client privilege, or other privilege or
immunity, the Designating Party will promptly notify
each receiving party in writing of the inadvertent
production. When a party receives notice of such
inadvertent production, it shall return all copies of
inadvertently produced material within three business
days. Any notes or summaries referring or relating to
any such inadvertently produced material subject to
claim of privilege or immunity shall be destroyed
forthwith. Nothing herein shall prevent the receiving
party from challenging the propriety pf the
attorney-client privilege or work product immunity or
other applicable privilege designation by submitting a
challenge to the Court. The Designating Party bears
the burden of establishing the privileged nature of any
inadvertently produced information or material. Each
receiving party shall refrain from distributing or
otherwise using the inadvertently disclosed
information or material for any purpose until any issue
of privilege is resolved by agreement of the

C30
parties or by the Court. Notwithstanding the foregoing,
a receiving party may use the inadvertently produced
information or materials to respond to a motion by the
Designating Party seeking return or destruction of
such information or materials. If a receiving party
becomes aware that it is in receipt of information or
materials which it knows or reasonably should know is
privileged, Counsel for the receiving party shall
immediately take steps to (i) stop reading such
information or materials, (ii) notify Counsel for the
Designating Party of such information or materials, (iii)
collect all copies of such information or materials, (iv)
return such information or materials to the
Designating Party, and (v) otherwise comport
themselves with the applicable provisions of the Rules
of Professional Conduct.
19. The foregoing is entirely without prejudice to the
right of any party to apply to the Court for any further
Protective Order relating to Designated Material; or to
object to the production of Designated Material; or to
apply to the Court for an order compelling production
of Designated Material; or for modification of this
Order; or to seek any other relief from the Court.
20. The restrictions imposed by this Order may be
modified or terminated only by further order of the
Court.
IT IS SO ORDERED,
/s/ Victor A. Bolden
Victor A. Bolden
United States District Judge

C31
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page24 of 38
Case 3:17-cv-02066-VAB Document 4 Filed 12/11/17
Page 6 of 6
EXHIBIT A
I have been informed by counsel that certain
documents or information to be disclosed to me in
connection with the matter entitled________________
________have been designated as confidential. I have
been informed that any such documents or information
labeled "CONFIDENTIAL PRODUCED PURSUANT
TO PROTECTIVE ORDER" are confidential by Order
of the Court.
I hereby agree that I will not disclose any
information contained in such documents to any other
person. I further agree not to use any such information
for any purpose other than this litigation.

DATED:
Signed in the presence of:
(Attorney)

C32
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page25 of 38
Case 3:17-cv-02066-VAB Document 5 Filed 12/13/17
Page 1 of 6
141 Church Street, New Haven, CT 06510
(203) 773-2140
450 Main Street Hartford, CT 06103 (860) 240-3200
915 Lafayette Blvd Bridgeport, CT 06604
(203) 579-5861
NOTICE TO COUNSEL AND PRO SE PARTIES
The attached case has been assigned to District
Judge Victor A. Bolden who sits in Bridgeport. Counsel
and Pro Se Parties should file all future pleadings or
documents in this matter with the Clerk's Office in
Bridgeport. Any attempt to file pleadings or other
documents related to this action in any of the other
seats of Court will result in those pleadings or
documents being refused at the Court or being
returned to you. See D. Conn. L. Civ. R. 3(a).
Counsel and Pro Se Parties are required to become
familiar with and abide by the Federal Rules of Civil
Procedure, the Local Rules of Civil Procedure for the
District of Connecticut and Standing Orders regarding
scheduling in civil cases and the filing of trial
memoranda.
Counsel and Pro Se Parties are hereby notified
that failure to file and serve a memorandum in
opposition to a motion, within 21 days after the motion
is filed, may be deemed sufficient cause to grant the

C33
motion. Failure to file and serve a memorandum in
opposition to a motion to dismiss within 21 days after
the motion is filed may be deemed sufficient cause to
grant the motion, except where the pleadings provide
sufficient grounds to deny the motion. See D. Conn. L.
Civ. R. 7(a)l.
Counsel and Pro Se Parties are further notified
that they are required to comply with requirements
relating to Motions for Summary Judgment as set
forth in Fed. R. Civ. P. 56 and D. Conn. L. Civ. R. 56. A
party may move for Summary Judgment when that
party believes there is no genuine issue of material fact
requiring trial and the party is entitled to judgment as
a matter of law. The motion may be directed toward all
or part of a claim or defense and it may be made on the
basis of the pleadings or other portions of the record in
the case or it may be supported by affidavits and other
materials outside the pleadings.
When a party seeking Summary Judgment (the
"moving party") files a supporting affidavit, the party
opposing Summary Judgment must file an affidavit, or
other documentary evidence, contradicting the moving
party's submissions to demonstrate that there are
factual issues requiring a trial. Facts asserted in the
affidavit(s) of the moving party will be taken as true if
not controverted by counter-affidavits or other
documentary evidence.
Local Civil Rule 56(a) requires the party seeking
Summary Judgment to file a document entitled "Local
Rule 56(a)! Statement," Which sets forth in separately

C34
numbered paragraphs a concise statement of each
material fact as to which the moving party contends
there is no genuine issue to be tried. The material facts
set forth in this statement shall be deemed admitted
unless controverted by the "Local Rule 56(a)2
Statement" required to be served by the opposing party.
The paragraphs in the 56(a)2 statement shall
correspond to the paragraphs in the 56(a) 1 statement
and shall state whether the facts asserted by the
moving party are admitted or denied. The Local Rule
56(a)2 statement must also include in a separate
section a list of each issue of material fact as to which
it is contended there is a genuine issue to be tried.
Counsel and Pro Se Parties are alerted to the
requirements of Fed. R. Civ. P. 26(f) and Local Civil
Rule 26, which require that the parties conduct a case
management planning conference and prepare and file
a report of the conference on Form 26(f) which appears
in the Appendix to the Local Rules.
Counsel and Pro Se Parties are further advised
that they may request a referral of their case to a
United States Magistrate Judge for disposition. See 28
U.S.C. 636 and Rule 77.2 of the Local Rules for United
States Magistrate Judges.
Robin D. Tabora, Clerk
(Revised 10/23/15)

C35
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page27 of 38
Case 3: 17-cv-02066-VAB Document 5 Filed 12/13/17
Page 3 of 6
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
ORDER RE: DISCLOSURE STATEMENT
Any nongovernmental corporate party to an action in
this court shall file a statement identifying all its
parent corporations and listing any publicly held
company that owns 10% or more of the party's stock. A
party shall file the statement with its initial pleading
filed in the court and shall supplement the statement
within a reasonable time of any change in the
information. Counsel shall append a certificate of
service to the statement in compliance with local rule
5(c).

Counsel for plaintiff or removing defendant shall be
responsible for serving a copy of this order upon all
parties to the action.

By Order of the Court
Robin D. Tabora, Clerk
Revised 10/23/15

C36
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page28 of 38
Case 3:17-cv-02066-VAB Document 5 Filed 12/13/17
Page 4 of 6
TIPS FOR SUCCESSFUL CM/ECF EFILING
• You cannot efile on a case using your PACER login
and password. To efile on a case, you must have (1) a
PACER login and password and (2) an ECF login and
password (you need both). To obtain an ECF
login/password a Connecticut bar number is needed
and the registration form (available on our website)
must be completed and emailed to the address on the
form: attorney registration form@ctd.uscourts.gov.
After the completed form is received, an email will be
sent to you with your ECF login/password.
• Do not efile on a case that has not been designated as
an efiled case. If there is no EFILE flag, DO NOT
EFILE ON THE CASE!
• Do not attempt to re-docket something that you
think may have been done incorrectly. Call the Clerk's
Office for assistance before attempting to make any
corrections!
• When efiling a Memorandum in Support/Opposition/
Reply/Affidavit/Exhibit relating to a Motion, you must
link the memo/reply/affidavit/exhibit to the underlying
motion.
• Make sure the PDF document does not exceed 10,000
KB, is readable, the correct one to be filed and is right-

C37
side up if scanned.
• Do not use the apostrophe or tilde in the text of the
entry.
• When efiling documents in a multi-defendant
criminal case, be sure to check ONLY the box for the
defendant(s) that relate to the document you are
efiling. and not the entire case.
• Include your electronic signature (ls/followed by your
name) on the signature line for both the document and
the certification of service.
• IMPORTANT INFORMATION RE PRIVACY ACT:
All filings with the court including attachments - must
comply with Fed. R. Civ. P. 5.2 or Fed. R. Crim. P. 49.1:
Social Security or taxpayer-identification numbers;
dates of birth; names of minor children; financial
account numbers; and home addresses in criminal
cases may not appear, except as allowed by the
applicable rule.
Affidavits
Affidavits may be efiled with the signature page
scanned or with a /s/ on the signature line. If the
affidavit is related to a motion, it must be linked to the
motion.
Amended Complaints
If a new party is being added, please select the
"Add/Create New Party" on the appropriate filers
screen. New plaintiff(s) should be added on the
filers screen with the heading "Select the Filer," new

C38
defendant(s) should be added on the filers screen with
the heading, "Please select the party that this filing is
against." Enter the name of the business or last name
of the individual and click "search" to see if the name of
the party is already in our system. If not, continue to
create the new party following the Instructions for
Searching and Adding Parties located on the District
Court's website. See also www.ctd.uscourts.gov. Make
sure that you select the role of the party. Do not put
any information in the other fields except for "Party
Text" when necessary. The "Party Text" field is used as
a descriptive text as explained in the Instructions.
Update . the Jury Demand when prompted.
Appearances
You may not efile an appearance on behalf of another
attorney. The attorney filing the appearance must be
the attorney that is logged into CMECF. You must
click on the following box to create an association
between you and the party(ies) that you are
representing:
The following attorney/party associations do not
exist for this case. Please check which associations
should be created for this case:
[/] Party Name (pty:pla) represented by Your
name (aty) [V]Lead[V] Notice
Attachments
You must name your attachment by either selecting
something from the "Type" drop down menu or by
entering something in the "Description" field.
Whatever you select or enter from both of these options

C39
will appear in the docket text.
Discovery
The Court does not accept Discovery pursuant to Local
Rule 5(f).
Filers
If there is more than one party as a filer, hold the
CTRL key while selecting the applicable parties.
Motions
Do not use this event if you are not asking for some
relief from the court. If there is more than one relief in
your motion, select the applicable reliefs by clicking on
them in the box to the left. The reliefs you have
selected will appear in the box to the right.
If you are efiling a motion asking permission to file
something or to amend something already filed, you
must attach the proposed document as an exhibit to
your motion. Do not efile the proposed document until
your motion has been granted - then efile the document
you asked for permission to file.
Do not combine motions with responses to other
documents. Motions and responses should be filed as
separate documents.
Notice (other)
If you find you are frequently using this event, call the
Clerk's Office for assistance in locating the correct
event for your submission.
Notice of Manual Filing

C40
The Notice of Manual Filing should be efiled using the
event for the item you are filing in paper. Do not use
the "Notice (Other)" event. For example, if you are
filing exhibits manually, use the "Exhibit" event and
attach the pdf of the Notice of Manual Filing. Mail the
exhibits along with copies of the Notice of Electronic
Filing and the Notice of Manual filing to the Clerk's
Office.
Returns of Service
Returns on executed summonses should be efiled using
either the "Summons Executed" or "Summons
Returned Executed as to USA". There is a separate
event for 'Waiver of Return of Service." See the
Attorney Instructions for eFiling Civil Returns of
Service on our website.
Sealed Documents
Attorneys may EFILE sealed documents. See the
Cheat Sheet on the Court's website for helpful
information.

Revised 10/23/15

C41
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page32 of 38
Case 3:17-cv-02066-VAB Document 8 Filed 06/28/18
Page 2 of 5
Other Orders/Judgments
3:17-cv-02066-VAB Church of Jesus Christ of
Latter-Day Saints et al v. Chatigny.
EFILE,PROSE,WIG
U.S. District Court District of Connecticut
Notice of Electronic Filing
The following transaction was entered on 6/15/2018 at
3:04 PM EDT and filed on 6/15/2018
Case Name: Church of Jesus Christ of Latter-Day
Saints et al v. Chatigny
Case Number: 3: 17-cv-02066-VAB
Filer:
Document Number: 7(No document attached)
Docket Text:
41 (a) NOTICE: Rule 41 (a) of the Local Rules of this
District provides: "In civil actions in which no action
has been taken by the parties for six (6) months or in
which deadlines established by the Court pursuant to
Rule 16 appear not to have been met, the Clerk shall
give notice of proposed dismissal to counsel of record
and pro se parties, if any. if such notice has been given
and no action, has been taken in the action in the
meantime and no satisfactory explanation is
submitted to the Court within twenty (20) days
thereafter, the Clerk shall enter an order of dismissal.

C42
Any such order entered by the Clerk under this Rule
may be suspended, altered, or rescinded by the Court
for cause shown. This case Is subject to being
dismissed under this rule. Unless satisfactory
explanation of why it should not be dismissed is
submitted to the Court by 7/5/2018, it shall be
dismissed. Signed by Clerk on 6/15/2018.(Perez, J.)
3:17-cv.;02066-VAB Notice has been electronically
mailed to:
3:17-cv-02066-VAB Notice has been delivered by
other means to:
Xiu Jia,n Sun
54-25 153rd St.,
Flushing, NY 11355

C43
Case 19-3563, Document 8, 11/07/2019,
2700632, Page33 of 38
Case 3:17-cv-02066-VAB Document 8
FILED
Filed 06/28/18 Page 3 of 5
2018 June-28 P 3:40
US DISTRICT COURT
UNITED STATES DISTRICT
HARTFORD, CT
COURT DISTRICT OF CONNECTICUT
X

THE CHURCH OF JESUS CHRIST
OF LATTER-DAY SAINTS, SERVANT:
XIU JIAN SUN, THE SPIRITUAL ADAM
Civil Action No
Plaintiffs
2017-2066(VAB)
v.
Pharisees: ROBERT N. CHATIGNY,
Defendant
X

Document Number: 7 (Document attached)
1. Doctrine and Covenants 42
83). And thus ye shall do in all cases which shall come
before you.
84). And if a man or woman shall rob, he or she shall be
delivered up unto the law of the land.
85). And if he or she shall steal, he or she shall be
delivered up unto the law of the land.
86). And if he or she shall lie, he or she shall be
delivered up unto the law of the land.

C44
87). And if he or she do any manner of iniquity, he or
she shall be delivered up unto the law, even that of
God.
88. And if thy brother or sister offend thee, thou shalt
take him or her between him or her and thee alone;
and if he or she confess thou shalt be reconciled.
89). And if he or she confess not thou shalt deliver him
or her up unto the church, not to the members, but
to the elders. And it shall be done in a meeting, and
that not before the world.
2.
90). And if thy brother or sister offend many, he or she
shall be chastened before many.
91). And if any one offend openly, he or she shall be
rebuked openly, that he or she may be ashamed.
And if he or she confess not, he or she shall be
delivered up unto the law of God.
92). If any shall offend in secret, he or she shall be
rebuked in secret, that he or she may have
opportunity to confess in secret to him or her whom
he or she has offended, and to God, that the church
may not speak reproachfully of him or her.
93). And thus shall ye conduct in all things.
3. Jehovah, -the Lord god of host gives the words to
servant (Plaintiff) in the temple he made, “Trial
with god's law. Apply for jury to prevent
insult and unfair behavior.”

C45
4.

I (servant) would like to request a Mandarin
Chinese court interpreter for my appeal court day.

Dated: Queens, New York
June 25, 2018
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
Xiu Jian Sun, the spiritual Adam
54-25 153rd St.,
Flushing, NY 11355
646-675-0308
Plaintiffs

CERTIFICATE OF SERVICE
I hereby certify under penalty of perjury that on
this 25 day of June, 2018, I caused to be placed in the
United States mail (first-class postage paid), 1 copies of
a “Document attached” address as follows:
To: Robert N. Chatigny
U.S. District Court District of Connecticut
450 Main Street
Hartford, Connecticut 06103
Simon Chen
Dated: Queens, New York
June 25, 2018

C46
Case 19-3563, Document 8, 11/07/2019,
2700632, Page36 of 38
Case 19-3563, Document 1, 10/29/2019,
2692402, Pagel of 5
Case 3:17-cv-02066-VAB Document 10
Filed 10/28/19 Page 1 of 3
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
X

THE CHURCH OF JESUS CHRIST
OF LATTER-DAY SAINTS, SERVANT:
XIU JIAN SUN, THE SPIRITUAL ADAM
Plaintiffs
Civil Action No
v.
2017-2066(VAB)
Pharisees: ROBERT N. CHATIGNY,
Defendant
Notice of Appeal
X

Notice is hereby given that Xiu Jian Sun, the
spiritual Adam (plaintiffs) in the above named case, *
hereby appeal to the United States Court of Appeals
for the 2ND CIR, (from the final judgment) (from the
order (describing it)) entered in this action on the 10
day of October, 2019.
Dated: October 22, 2019
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
54-25 153rd St
Flushing, NY 11355
646-675-0308
Plaintiffs

C47
Case 19-3563, Document 8, 11/07/2019, 2700632,
Page37 of 38
Case 19-3563, Document 1, 10/29/2019, 2692402,
Page2 of 5
Case 3:17-cv-02066-VAB Document 10 Filed 10/28/19
Page 2 of 3
10/10/2019
CT CMECF NextGen
Other Orders/Judgments
3:17-cv-02066-VAB Church of Jesus Christ of LatterDay. Saints et al v. Chatignv.
EFILE,PROSE ,WIG
U.S. District Court District of Connecticut
Notice of Electronic Filing
The following transaction was entered on 1 0/10/2019 at
1 J: 15 AM EDT and filed on 10/10/2019
Case Name: Church of Jesus Christ of Latter-Day
Saints et al v. Chatigny
Case Number: 3:17-cv-02066-VAB
Filer:
Document Number: 9(No document attached)
Docket Text:
ORDER dismissing the case under D. Conn. L. Civ. R.
41(a), consistent with the Court's order from June 15,
2018, ECF No. 7. That notice required Plaintiff to
respond with a "satisfactory explanation" for the case's
inaction. Having reviewed the response submitted, the
Court has determined that it is not satisfactory.
Furthermore, since that response, the Court allowed
more time to elapse, but Plaintiff has still failed to
move this case forward. Accordingly, the Clerk of Court
is respectfully requested to terminate the case.

